uourt** Mppeai: ^u- 110/

uoc: 10

rneu;

vdi/li

ry: 1 01 ^

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1157
In re: CATHERINE DENISE RANDOLPH,
Appellant.

Appeal from the United States District Court for the District of Maryland, at Baltimore.
James K. Bredar, Chief District Judge. (1:15-mc-00369)
Submitted: May 21, 2020

Decided: May 27, 2020

Before AGEE and QUATTLEBAUM, Circuit Judges, and TRAXLER, Senior Circuit
Judge.

Dismissed by unpublished per curiam opinion.

Catherine Denise Randolph, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

uoortH Mppeai; t.u- 110/

uou: 10

meu: uo/^z/^u^u

ry: ^ ui z

PER CURIAM:
Catherine Denise Randolph appeals the district court’s order returning her pleadings
because the pleadings did not comply with the prefiling injunction and did not state a
plausible cause of action. We have reviewed the record and find no reversible error.
Accordingly, we deny leave to proceed in forma pauperis, deny Randolph’s motion to
expedite discovery and appoint an expert witness, and dismiss the appeal. We dispense
with oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
DISMISSED

2

uou/vt Mppeai. zu- 110/

lxju:

1/

meu: uo/zo/zuzu

ry: 1 ui 1

FILED: August 25, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1157
(l:15-mc-00369)

In re: CATHERINE DENISE RANDOLPH
Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Agee, Judge Quattlebaum, and
Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

fjlhdoty h - fr*s+
'IS*

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
1100 East Main Street, Suite 501, Richmond, Virginia 23219

C?

September 21, 2020

NOTICE

xt>
No. 20-1157,

In re: Catherine Randolph
l:15-mc-00369

TO: Counsel and Parties
The parties are advised that the supplemental petition for rehearing is considered
moot and that the court does not intend to take action on the supplement.
Anisha Walker, Deputy Clerk
804-916-2704

◄

